<html>
<title> - DAWOOD NATIONAL MILITARY HOSPITAL, AFGHANISTAN: WHAT HAPPENED AND WHAT WENT WRONG? PART II</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





DAWOOD NATIONAL MILITARY HOSPITAL, AFGHANISTAN: WHAT HAPPENED AND WHAT 
                          WENT WRONG? PART II

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2012

                               __________

                           Serial No. 112-180

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-249 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania
VACANCY

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 12, 2012...............................     1

                               WITNESSES

Lieutenant General William B. Caldwell, IV, United States Army
    Oral Statement...............................................     7
    Written Statement............................................    10
Major General Gary S. Patton, United States Army
    Oral Statement...............................................    15
    Written Statement............................................    17
The Honorable Kenneth P. Moorefield, Deputy Inspector General for 
  Special Plans and Operations, U.S. Department of Defense
    Oral Statement...............................................    20
    Written Statement............................................    22

                                APPENDIX

The Honorable John F. Tierney, a Member of Congress from the 
  State of Massachusetts, Opening Statement......................    68

 
DAWOOD NATIONAL MILITARY HOSPITAL, AFGHANISTAN: WHAT HAPPENED AND WHAT 
                          WENT WRONG? PART II

                              ----------                              


                     Wednesday, September 12, 2012

                   House of Representatives
       Subcommittee on National Security, Homeland 
                    Defense, and Foreign Operations
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:46 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee] presiding.
    Present: Representatives Chaffetz, Labrador, Gowdy, 
Farenthold, Tierney, and Lynch.
    Also Present: Representative Issa.
    Staff Present: Molly Boyl, Majority Parliamentarian; Steve 
Castor, Majority Chief Counsel, Investigations; John Cuaderes, 
Majority Deputy Staff Director; Linda Good, Majority Chief 
Clerk; Mark D. Marin, Majority Director of Oversight; Jaron 
Bourke, Minority Director of Administration; Ashley Etienne, 
Minority Director of Communications; Devon Hill, Minority Staff 
Assistant; Peter Kenny, Minority Counsel; and Rory Sheehan, 
Minority New Media Press Secretary.
    Mr. Chaffetz. The Committee will come to order.
    I would like to begin this hearing by stating the Oversight 
Committee mission statement. We exist to secure two fundamental 
principles: first, Americans have a right to know that the 
money Washington takes from them is well spent and, second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights.
    Our solemn responsibility is to hold government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their government. We will work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    I would like to also start off by issuing condolences and 
concern for the situation in Libya. An ambassador was killed; 
others were killed, men and women who served this Country. The 
gentlemen that are here before us on this panel, we cannot 
thank you enough for your service; you have distinguished, 
well-deserved accomplishments serving your Country and this 
Nation at great sacrifice to you and your families. We cannot 
thank you and the literally millions of people who have gone 
before you and served this Nation, people who at this very day 
are overseas and here at home serving their Nation. It is 
heartfelt; it is bipartisan; it is the American way.
    And certainly at this time, when we have a tumultuous 
situation in various parts of the world, most recently the loss 
of life there in Libya, our hearts go out to those that are 
serving; and also the families, the husbands, the wives, the 
kids who maybe are back home and worried about their loved ones 
that are overseas.
    Today we are talking about a very difficult situation, 
something that I think went awry. What separates the United 
States of America from probably the rest of the world is our 
openness and transparency, the fact that a Congress can sit 
down with two distinguished generals and talk candidly about 
what happened or didn't happen in a format that allows these 
discussions. Although difficult, it is what separates the 
United States of America, I think, from everybody else.
    So I do appreciate you being here and I'd like to get into 
my more formal statement.
    Today's hearing is Dawood National Military Hospital, 
Afghanistan: What Happened and What Went Wrong? And this is the 
second part, having had a hearing a couple months ago on this 
topic.
    I would like to welcome Ranking Member Tierney, members of 
our Subcommittee, and members of the audience who are 
participating with us and those who are obviously watching via 
television and the Internet.
    Today's hearing continues the Subcommittee's investigation 
into the rampant corruption, physical abuse, and lack of 
accountability at the Dawood National Military Hospital in 
Afghanistan. The National Military Hospital was established for 
the purpose of treating wounded Afghan soldiers. It is funded 
largely by the United States and is known as the crown jewel of 
the Afghan medical system. The hospital is staffed by Afghan 
doctors and nurses who are mentored by U.S. military doctors.
    While the U.S. military personnel advised the Afghan 
medical staff, they did not administer treatment or 
pharmaceuticals; that was the responsibility of the Afghans. 
Their mission is to ``help the Afghans perform and increase 
their capability not by doing for them, but by, rather, 
advising them and stepping back.'' They perform ``not as a 
clinician, not as a nurse, not as a technician, but as a 
trainer. When they come here, it is advising.''
    During the summer of 2010, and as early as 2006, 
allegations began to surface regarding widespread theft, 
mismanagement, and patient neglect at the hospital. Evidence 
indicates that wounded Afghan soldiers endured starvation, bed 
sores, and gangrene. Some patients were extorted for medical 
care, while others were abused, neglected, and made to suffer. 
Afghan doctors operated in smoke-filled rooms without 
anesthesia or painkillers. Maggots crawled from festering 
wounds. Some patients died from lack of care.
    If not for family members who bribed officials for 
medicine, many more probably would have perished. According to 
firsthand accounts, Afghans stole fuel needed to run generators 
and sold pharmaceuticals on the black market. Afghan doctors 
and nurses would rarely show up for work after being trained 
considerably at the United States expense.
    Documents indicate that misappropriation of resources were 
staggering. Medical supplies and equipment were hoarded, 
stolen, and misused. In 2010, Afghan Surgeon General Yaftali 
was suspected of pilfering $20 million in cash and $153 million 
worth of medical supplies over a five-year period. It was also 
reported that supplies were shipped to Pakistan while 
legitimate pharmaceuticals were replaced with counterfeits.
    Yet, the United States Government continued to ship 
supplies without accountability controls in place. These 
accounts were corroborated by senior U.S. military officials at 
our July hearing. One panel member described the conditions as 
Auschwitz-like. Another testified about an abusive, corrosive 
environment with no heat; open vats of blood draining from 
wounds, and feces on the floor. In addition to poor standards, 
the hospital was infested with a criminal patronage network.
    What I am about to show you is extremely graphic. These are 
but 4 of the 70 pictures we obtained through this 
investigation. If there are children watching, I would 
encourage them to look away and ask them to leave the room. If 
you are at all squeamish, consider turning away and stepping 
out. These are exceptionally graphic. I would encourage you not 
to look at them if you have any hesitation.
    There are a lot of U.S. personnel who suffered 
psychologically from what they saw on a frequent basis. We know 
of many of U.S. personnel who are still seeking psychological 
counseling for what they had to witness and experience there at 
that hospital. These are awful conditions, and they were 
financed in part by the United States taxpayer.
    From July to November 2010, senior U.S. military officials 
reported these issues up their chain of command. This includes 
briefings to General Petraeus, Lieutenant General William 
Caldwell, and Major General Patton. For example, on August 
25th, 2010, Lieutenant General Caldwell received an exhaustive 
email about the problems at Dawood and lack of accountability. 
Despite all the evidence, there appeared to be a hesitation to 
investigate further. In fact, the witnesses testified there may 
have been a deliberate effort to delay an investigation for 
political reasons. This was followed by an apparent attempt to 
prevent information from reaching Congress and the American 
people.
    Problems with transparency and accountability are, 
unfortunately, not unique, necessarily, to the Dawood Hospital. 
The Inspector General for Afghanistan Reconstruction issued an 
alert letter on Monday indicating that hundreds of millions of 
dollars worth of fuel supply records may have been shredded by 
personnel in Afghanistan. This occurred despite a department 
directive to preserve financial information for the purpose of 
transparency. We will explore this in a hearing tomorrow with 
the Special Inspector General for Afghan Reconstruction.
    But there are other challenges that we have here that we 
need to discuss in a broader sense with the Pentagon. In an 
email on January 1st, 2011, Colonel Marian Amrein sent an email 
to Colonels Carosa and Anderson regarding a tasker to send 
information to the IG on Afghan General Yaftali's suspected 
pilfering of Dawood Hospital supplies. In that email, Colonel 
Amrein stated, ``Brigadier General Patton reviewed the summary 
and documentary evidence that we intend to provide. He made 
changes and told us to reduce the documentary evidence that we 
provide.''
    Regarding the photo policy, on September 12th, 2011, nine 
days after The Wall Street Journal broke a story on Dawood 
Hospital, the Command surgeon disseminated a memorandum with a 
new policy forbidding personnel from taking pictures of the 
hospital and patronage and disseminating it to others, 
instructing those photos to be shredded and dismissed.
    Withholding General Geller's memorandum for the record, 
myself and Chairman Issa sent a letter to the Department of 
Defense on October 13th, 2011. Colonel Geller was tasked with 
creating a time line and description of events, which resulted 
in a 25-page memorandum for the record. Instead of providing 
that document to the Committee, the Department of Defense 
created a separate chart that contained only selected 
information pulled from the original memorandum, thus 
withholding full information from the United States Congress. 
Further, Colonel Geller was prevented from speaking to the 
media.
    And then we have this report from the SIGAR, the Special 
Inspector General for Afghan Reconstruction, about years of 
financial records recording U.S. fuel supplies and products of 
Afghanistan either missing or may have been destroyed by 
Department of Defense personnel and the Combined Security 
Transition Command-Afghanistan.
    And then we have the situation regarding the Palantir 
system. Inexplicably, the Department of Defense destroyed or 
replaced an independent assessment of intelligence analyst tool 
Palantir used and preferred by soldiers in the field. The 
revised report diminishes the survey comments made by the 
soldiers in the field to reduce the perceived preference for 
the Palantir system. There are concerns that documents have 
been shredded there, with an email that indicates that that did 
happen.
    This should not be. If these reports are accurate, then we 
are witnessing a pattern wherein transparency and 
accountability are exception, not the rule. This is totally 
unacceptable to the American way.
    I am encouraged by more recent reports of progress at 
Dawood Hospital and the Afghan medical system. Our men and 
women in uniform have an exceptionally difficult task and 
should be commended for their efforts, but we have to be better 
stewards of taxpayer dollars.
    I urge President Obama and his administration to reconsider 
and re-prioritize our strategy in what we seek to accomplish. 
Let me be clear. Giving large sums of money directly to the 
Afghan Government is no substitute; it is not a legitimate 
withdrawal strategy. We have to make sure that all money is 
accounted for and that any person misusing money is held 
accountable. Should the taxpayers continue to fund a foreign 
government that has a history of misusing that funding? The 
concern is that American policy is gravitating not to more 
oversight, but to less oversight. The Government seems to be 
moving in a trajectory to want to give the money directly to 
the Afghans. And yet time after time after time we see a 
pattern of misuse, abuse, and just outright fraud; and that is 
the concern as we try to bring our troops home.
    I look forward to hearing from the panel and appreciate 
everybody's willingness to be here.
    I now recognize the distinguished Ranking Member, the 
gentleman from Massachusetts, Mr. Tierney, for his opening 
statement.
    Mr. Tierney. Thank you very much, Mr. Chairman, and thank 
you, generals and ambassador, for joining us here this morning.
    This Subcommittee has a history of being concerned with 
issues of corruption and mismanagement of the United States 
taxpayers' dollars in Afghanistan. In 2005, I co-authored 
bipartisan legislation with then-Congressman Jim Leach that led 
the way to the creation of the Commission on Wartime 
Contracting, and that Commission issued a report last fall 
estimating up to $60 billion in waste, fraud, and abuse of 
United States taxpayer funds in Iraq and Afghanistan.
    Under my chairmanship, this Subcommittee conducted multiple 
investigations into allegations of corruption in United States 
contracting relating to the war in Afghanistan. In partnership 
with the minority, we investigated jet fuel contracts in 
Kyrgyzstan and the Host Nation Trucking contract in 
Afghanistan. Our investigation of the trucking contract found 
that contractors were making protection payments to our enemies 
with U.S. taxpayer dollars.
    So I support Chairman Chaffetz's continuing investigation, 
including today's focus on Dawood National Military Hospital in 
Afghanistan. In July, this Subcommittee held a hearing in which 
four current and former military officers recounted their 
firsthand observations of the mismanagement and corruption at 
the hospital. The conditions these witnesses described were 
truly appalling: no hot water for hygiene, no cleaning supplies 
for sanitation, even a lack of heat during the winter. Due to 
contracting fraud, the morphine given to patients was 
counterfeit and did little to relieve patient suffering. 
Corruption permeated the highest levels of hospital leadership 
and the Afghan Army's medical logistics system.
    In response to these revelations, I called for an expansion 
of the Subcommittee's investigation. I believe we have to 
change our spend-first, ask-questions-later approach to 
reconstruction in Afghanistan, where the United States has 
already committed nearly $100 billion to reconstruction 
efforts. To that end, I welcome today's hearing to further our 
examination of what happened at Dawood Hospital.
    We must all recognize, however, that the problems at the 
hospital and within the Afghan Army's medical logistics system, 
are longstanding. In fact, the United States support for Dawood 
Hospital began around 2005, five years before senior military 
officers began raising concerns and ultimately recognizing the 
need for outside assistance, and four years before Lieutenant 
General Caldwell assumed command of the NATO training mission.
    With the former command and his deputy here before us 
today, I want to know how the conditions deteriorated to this 
shameful point; how our mission could progress for so long 
without more attention to these important issues, including 
from the DOD inspector general; and what steps General Caldwell 
and General Patton took to confront these challenges. Going 
forward, I also want to know how our current training and 
equipping mission can be improved to ensure Afghan 
participation accountability.
    In the course of this investigation, the Chairman has 
raised concerns that Lieutenant General Caldwell and Major 
General Patton inappropriately interfered with the Defense 
Department's inspector general's oversight at Dawood Hospital. 
I share those concerns. The Chairman has gone further, however, 
and suggested that the motivation was political: to influence 
the 2010 congressional elections. At our last hearing, several 
witnesses testified that an objectionable comment was made; 
however, some of the witnesses also stated that the comment was 
dismissed as inappropriate for consideration.
    I look forward to learning more about what happened and to 
hear directly from the generals what their motivations were.
    Additionally, it is my understanding that due to the utmost 
professionalism of the Department of Defense inspector general, 
the alleged attempts at interference did not impair the 
inspector general's abilities to timely perform its critical 
work in Afghanistan. Indeed, the witnesses at our last hearing 
on Dawood Hospital testified that the inspector general's work 
directly led to significant improvements in the conditions at 
Dawood Hospital.
    Nonetheless, any interference with the inspector general's 
important oversight would be unacceptable. The inspector 
general is currently investigating this particular allegation. 
I look forward to reviewing the report when it is completed.
    So I want to thank all of you and I look forward to this 
hearing and the testimony that we will hear. Thank you.
    I thank the gentleman.
    Does the other gentleman from Massachusetts care to issue a 
statement?
    Mr. Lynch. I would.
    Mr. Chaffetz. The gentleman is recognized.
    Mr. Lynch. Thank you very much, Mr. Chairman.
    First of all, I want to thank the witnesses for their 
attendance here and for your service. I appreciate that 
greatly.
    Mr. Chairman, our involvement in Afghanistan has been one 
of the largest and most complex undertakings our Country has 
ever undertaken. Not only are we fighting Al Qaeda and the 
Taliban, but we are also trying to help rebuild a country that 
was severely undeveloped and ravaged by war even before 2001. 
Our efforts to rebuild or, in many cases, build in Afghanistan 
have turned out to be as great a challenge in the face of the 
corruption that exists there in-country as the military 
mission.
    The egregious case of the Dawood National Military Hospital 
highlights how mismanagement and corruption have been and 
continue to be among the biggest obstacles to NATO and Afghan 
efforts to rebuild and develop Afghanistan. It is my hope that 
this hearing and this Committee's investigation will unearth 
ways to help support the fundamental changes needed to keep 
this from happening again.
    Again, I do appreciate the attendance and the service of 
our witnesses this morning, and I am looking forward to 
clarifying some of the issues that arose at the first round of 
hearings that we had on this issue.
    Mr. Chairman, thank you for the time, and I yield back.
    Mr. Chaffetz. Thank you.
    Members may have seven days to submit opening statements 
for the record.
    We will now recognize our panel.
    Lieutenant General William Caldwell is the Commander of the 
United States Army North, Fifth Army, and Senior Commander, 
Fort Sam Houston and Camp Bullis; Major General Gary Patton is 
the Director of Defense Department's Sexual Assault Prevention 
and Response Office; and Ambassador Kenneth Moorefield is the 
Deputy Defense Inspector General for Special Plans and 
Operations.
    Obviously, some of these assignments and titles at the 
current moment have changed since their assignments for General 
Patton and General Caldwell have served in Afghanistan.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Chaffetz. Thank you. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your testimony to five minutes, but we 
are going to be pretty liberal on that time. If you choose to 
take longer, we would be more than happy to hear what you have 
to say. But we will start now by recognizing General Caldwell.

                       WITNESS STATEMENTS

    STATEMENT OF LIEUTENANT GENERAL WILLIAM B. CALDWELL, IV

    General Caldwell. Thank you, Mr. Chairman. Good morning. 
And Ranking Member Tierney and other Committee members, thank 
you for this opportunity to appear today. I have submitted my 
full statement to the Committee, which I would ask become a 
part of the record.
    Let me begin by saying it is a true honor to serve our 
Nation, now for over 36 years, both in peace and in conflict. 
Being here today is vitally important to me because the 
sacrifice and selfless service of America's sons and daughters, 
and their Afghan counterparts, deserve nothing than the truth 
be known.
    On November 21st of 2009, the NATO Training Mission-
Afghanistan, or, as it is called, NTM-A, was established to 
coordinate and synchronize the multinational efforts to raise, 
equip, train, and sustain an Afghan National Security Force. I 
assumed duties as the first NTM-A Commander and also assumed 
duties as the Commander of the United States Combined Security 
Transition Command-Afghanistan, which is the authority 
responsible for the oversight of U.S. funding, training, and 
ministerial development. The span of my command included nearly 
7500 military, civilian and contract trainers, advisors, 
instructors, and support personnel, and 6 Regional Support 
Commands, and 70 training sites located in 21 of the 34 
provinces inside of Afghanistan.
    The scope of our combined command's mission was 
unprecedented. This was a unique challenge as we had three 
simultaneous tasks. First, we had to establish a new 
multinational command. Second, we had to train, generate, and 
sustain an enduring Afghan National Security Force that 
included the Afghan Army, Police, and Air Force, and all of 
their associated support systems. And, third, we had to 
develop, advise, and mentor all levels of the Ministry of 
Defense and the Ministry of Interior.
    These challenges were complicated by existing factors that 
required immediate attention, such as an 86 percent illiteracy 
rate. This required us, literally, to teach writing and reading 
to all the basic recruits and to many officers; our prior focus 
that was on quantity over quality, and recruiting and training, 
which resulted in the need for retraining and a reorientation 
on quality; minimal oversight and accountability of material 
and equipment. This required a top to bottom review of 
inventory processes and the inculcation of an ethos of 
stewardship within the Afghan Security Force. And, finally, 
endemic corruption, which frustrated every effort and mandated 
leadership changes and implementation of ethical standards.
    In order to focus the effort of our organization from the 
first day of command, I approached the challenge by enacting 
what we named the Three Ts. The first was teaming; teaming in 
order to enable the Afghans to transition to a security lead 
when the U.S. and NATO reduced their presence. We knew it was 
imperative that the Afghans start owning their challenges and 
attempt to solve these things on their own. Therefore, we 
needed to team closely with the Afghan ministries and their 
security forces. My Command embraced this in everything we did.
    This philosophy was also held by each of the three ISAF 
Commanders I served under. One of them, General Petraeus, in 
his July 4th, 2010, letter to ISAF troops, reinforced this 
point when he said, ``This endeavor has to be a team effort. We 
must strive to contribute to the 'Team of Teams' that work in 
Afghanistan to achieve unity of effort.''
    The second tenet was transparency. I held a firm belief 
that NTM-A must be transparent in all that we did. No area was 
off-limits to any outside entity. Additionally, in early August 
of 2010, the Department of Defense IG embedded into our 
organization a member of their team. They had complete access 
to all of our individuals, our files, and our meetings. We were 
100 percent transparent with them.
    And the third tenet was transition. NTM-A endstate was to 
enable the security responsibility to be passed to the Afghan 
ministries and their security forces. Therefore, we could 
achieve transition only by effectively teaming with the 
Afghans.
    It was with these three tenets, of Team, Transparency, and 
Transition, that I made the majority of my command decisions. I 
reinforced this continuously with our NTM-A staff, trainers, 
instructors, and advisors during my tenure there.
    We are here today to talk about the Afghan military medical 
system. Afghanistan is a sovereign nation where their medical 
care was ranked in the bottom 10 percent globally by the World 
Health Organization. This poor medical care presented issues 
that were complex and required a high degree of coordination 
with our Afghan partners, coordination that was necessary and 
critical in order to have any chance of this care being 
established and enduring beyond our presence there.
    In conclusion, I supported all investigations, audits, and 
assessments, and to any aspect of our command. At one time 
during my tenure we had in excess of 27 simultaneous audits or 
assessments by multiple government agencies external to our 
command ongoing. We embraced these so that we could remain as 
transparent as possible and to demonstrate sound stewardship of 
the resources that had been entrusted to us by the American 
people and the U.S. Congress. At all times the command team and 
I addressed issues aggressively and immediately as they were 
presented to us. I welcome a discussion and your questions 
about the challenges we faced and how we addressed them. Thank 
you.
    [Prepared statement of General Caldwell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Chaffetz. Thank you, General.
    General Patton.

           STATEMENT OF MAJOR GENERAL GARY S. PATTON

    General Patton. Chairman Chaffetz, Ranking Member Tierney, 
and members of the Subcommittee, thank you for inviting me and 
providing me with the opportunity to testify about my role with 
respect to the National Military Hospital during my deployment 
to Afghanistan with NATO Training Mission-Afghanistan, NTM-A, 
from December 2009 to May 2011. I would like to begin by first 
stating that it was my honor and privilege to serve our Nation 
in Afghanistan for those 18 months, just as it has been an 
honor and privilege for each and every day of the past 33 years 
of my military service, which includes 45 months in combat and 
tours of duty overseas in Iraq, Afghanistan, and Korea.
    For the first six months of my assignment at NTM-A, from 
December 2009 to May 2010, I served as NTM-A's Deputy Commander 
for Programs and in that job was responsible for the oversight 
of the Afghan Security Force funds for the training and 
equipping of the Afghan National Army and Afghan National 
Police. For the subsequent 12 months, from May 2010 to May 
2011, I served as the NTM-A Commander for Army and was 
responsible for overseeing the development of the Afghan 
National Army and advising the Afghan Ministry of Defense. The 
scope of this mission demanded oversight across several major 
systems and sets of infrastructure, such as the national 
training system and the national headquarters.
    This mission occurred at a time during Operation Enduring 
Freedom, when the success of the NTM-A mission in manning, 
training, and equipping of professional and capable Afghan 
National Army, Police Force, and Air Force, was essential to 
the coalition's success. It was a challenging period of time in 
Afghanistan marked by a persistent enemy and countered by an 
Afghan Security Force that was undergoing unprecedented growth 
in terms of quantity, quality, and capability. It is still 
plagued by leader shortages and high levels of attrition and 
illiteracy. NTM-A's objective was to build and develop an 
Afghan Security Force capable of enduring with reduced or 
minimal NATO or U.S. support in 2014 and beyond.
    I have been invited here today to address the management of 
and medical care provided by the Dawood National Military 
Hospital, NMH, in Kabul. The problems associated with the NMH 
were highly complex ones, complicated by elements of Afghan 
corruption, failed Afghan leadership, and hospital staff 
apathy; worsened by the inherent problems of national 
illiteracy, and the historic inadequacy of Afghan health care; 
and, finally, burdened by the consistent flow of wartime 
casualties.
    NTM-A devoted considerable time and energy to improving the 
medical care and management of the hospital, along with 
accomplishing our other continuing, significant tasks of 
manning, building, training, developing, and equipping the 
Afghan National Army while at war. We took very seriously our 
role as advisors to drive positive change at the hospital 
through active, persistent, and firm engagement with our Afghan 
partners. It was important from the outset that this be a 
partnered effort because, in our experiences working with other 
Afghan systems, although a coalition solution to a problem 
would usually yield an immediate fix, only a partnered or 
Afghan-led solution would produce an enduring result.
    In closing, I would like to say that I am proud of the 
accomplishments of NTM-A and the service members of NTM-A with 
whom I served during my deployment to Afghanistan. I appreciate 
the opportunity to be here today and I look forward to your 
questions. Thank you.
    [Prepared statement of General Patton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Chaffetz. Thank you, General.
    Ambassador Moorefield.

        STATEMENT OF THE HONORABLE KENNETH P. MOOREFIELD

    Mr. Moorefield. Chairman Chaffetz, Ranking Member Tierney, 
and distinguished members of the Subcommittee on National 
Security, Homeland Defense, and Foreign Operations, good 
morning. Thank you for this opportunity to discuss past and 
present DOD IG oversight of the Department's efforts to develop 
the Afghan National Security Force's health care system, and 
particular that at the Dawood National Military Hospital.
    Meeting this challenge has understandably proven difficult, 
made even more so because the country has been involved in an 
intense war. When the ANSF medical care system development 
efforts began, the country's public health care was considered 
by international experts as among the worst in the world. Given 
the importance of this mission to our success in Afghanistan, 
DOD IG has undertaken seven oversight initiatives since April 
2008. I would like to highlight several of these, but my 
written statement for the record discusses results from each.
    In late October 2010, the then CSTC-A Inspector General on 
behalf of the Command requested DOD IG assistance in addressing 
``possible discrepancies concerning the distribution of, and 
accounting for, pharmaceuticals distributed to the ANA.'' On 
November 10th, 2010, the NTM-A/CSTC-A Commander, General 
Caldwell, sent me a message reconfirming his Command's request 
for DOD IG medical logistics mission assessment, adding that 
with the assistance of a recent increase in personnel, he had 
become increasingly concerned about ``possible illicit 
activities and inadequate accountability measures concerning 
pharmaceuticals supplied.''
    My team deployed to Afghanistan on November 28th, 2010. 
After visiting the NMH, three of four regional hospitals, plus 
associated medical depots, we briefed the Command with 
identified deficiencies related to dysfunctional medical 
logistics, which also negative impacted ANA hospital management 
and patient care at ANA hospitals; a lack of strategic planning 
to better focus NTM-A/CSTC-A and ANA joint efforts, and make 
effective use of scarce resources; and, finally, hospital 
mentoring teams staffed at only 50 percent of authorized 
personnel, among other issues discussed.
    In February 2011, as a result of the November assessment 
mission, we held an inspection of just the NMH focused on 
unacceptable conditions reported by the Command concerning 
hospital management, the medical personnel conduct, sanitation 
and patient care, and supply and inventory issues. This also 
resulted from a joint CSTC-A IG and MOD IG series of 
inspections of the National Military Hospital.
    Although the state of general sanitation and medical 
supplies had improved, a number of the other concerns were 
confirmed and we made recommendations to the Command for 
corrective actions. In June of this year, the DOD IG again 
assessed the National Military Hospital and the ANSF medical 
care system in a number of key areas necessary to create an 
independent, sustainable system.
    We found that development had advanced in the areas of 
planning and mentoring, leadership and management, and 
logistics and patient care, specifically with respect to 
establishment of a strategic plan to develop the ANSF health 
care system, strengthen personnel accountability and patient 
care procedures at NMH, inventory accountability and control 
measures instituted for medical supplies at NMH, improved 
patient care and nutrition at NMH, and an evident commitment by 
the new ANA surgeon general and NMH hospital commander to 
continue work on improving whatever needed to be improved at 
the hospital.
    Lastly, I should mention, although this wasn't initially 
something I was going to raise, but since the issue of fuels 
came up, controls had been imposed on the fuel supply system to 
the hospital.
    Significant challenges still remain with respect to the 
development of the ANSF medical system and the NMH capacity 
building initiative. Reportedly, as U.S. and coalition forces 
draw down over the next several years, the decreasing numbers 
of medical mentors will focus on priority medical areas 
requiring improvement. At NMH, these areas include emergency 
room, anesthesia, physical therapy, preventative medicine, and 
radiology; and improving medical logistic support for the ANSF 
and its medical care system is critical and is expected to 
require attention through 2014 and perhaps beyond.
    Finally, I should add that reenforcing ANSF commitment to 
the enduring stewardship of its health care system will need to 
remain a priority of both the Command and the Afghan 
government.
    In closing, let me emphasize that DOD IG is committed to 
continued oversight of the development of ANSF health care, 
including at the National Military Hospital. I look forward to 
answering any questions that you may have, and thank you.
    [Prepared statement of Mr. Moorefield follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Chaffetz. Thank you. I appreciate that. Your full 
statements will be entered into the record.
    I will now recognize myself for five minutes.
    General Caldwell, I read your prepared statement last night 
and, quite frankly, I was a little surprised. There are some 
very serious allegations about Dawood Hospital. The title of 
this hearing is about Dawood Hospital. It doesn't even mention 
Dawood Hospital in your statement. You have undoubtedly read 
The Wall Street Journal article that made this much more 
public. What happened? What is your response? Your spokesperson 
said you were eager to refute this; you had disputed it and you 
were looking forward to an opportunity. So I am giving you an 
opportunity to respond. What happened at Dawood and what went 
wrong?
    General Caldwell. Well, thank you, Chairman, for that 
question. What I was attempting to do in my statement is 
provide you an overview of the approach we took so you 
understood the mentality upon which we were trying to operate 
during the two years I was the commander there. I think if you 
don't fully appreciate that everything we did we had to team 
with the Afghans on, because we eventually had to set the 
conditions for transition in 2014.
    It was absolutely essential, our President had been very 
clear that we were going to significantly reduce the United 
States and NATO presence there, and in order to make sure the 
Afghans were prepared and able to account for, maintain, 
sustain what we had spent years and years of Americans' lives 
and money doing, we wanted to make sure, I wanted to make sure 
that everybody in that command understood team with your 
Afghans, do it in a transparent manner.
    I wrote in December of 2009 to General McChrystal, when I 
first came in, after a 30-day assessment, that there was 
rampant corruption throughout the entire Afghan system that I 
could see in my initial 30 days there and, therefore, the more 
we could get them to be transparent on everything they were 
doing, to make their systems more open, to hold them more 
accountable for their actions, that that in fact would ensure 
the stewardship that was necessary of the resources that we 
were being given by the American people through the U.S. 
Congress.
    Mr. Chaffetz. But, General, you also understood that you 
didn't have the internal resources to provide the oversight. I 
mean, that is clear through a series of emails to you, from 
you. I think you understood that you didn't have the internal 
controls in place. We knew that Surgeon General Yaftali was 
under an investigation for stealing $20 million and another 
$150 million in pharmaceuticals, and you have colonels and 
others that you had tasked to oversee this at Dawood Hospital, 
and this keeps going on for months and months with no request 
for additional help and support from the inspector general. 
That is the concern.
    Why the delay in asking for additional resources through 
the inspector general to help with the corruption and 
challenges at Dawood? What happened at Dawood?
    Because we would all probably agree that this is almost an 
impossible task in Afghanistan. We cannot thank you enough for 
your service in that. But specific to Dawood what happened?
    General Caldwell. Chairman, the first thing we did was in 
the May time period of 2010, when we finally got some 
additional resources that I had requested back in December of 
2009, I was able to put some people into the hospital system 
that we had not previously had, and it was during that time a 
young major that went in there and she was starting to help us 
understand the pharmaceuticals and the challenges that were 
associated with that. By that summer it was becoming apparent 
to us that there was corruption in the system and we were then 
trying to establish whether is it just going into warehouses, 
is it corruption where people are making a profit off it. So we 
internally started looking very hard at the whole corruption 
issue.
    You made reference to the August 25th email that Colonel 
Carosa wrote to me and shared with me, again, because we were 
all in active discussion trying to sort through where this 
corruption was occurring and how it was occurring, and said 
this is what we are seeing right now. I immediately wrote back 
to him, said we take very seriously what you are saying; we 
have got to get the team together; I would ask you to work with 
the Army team as we continue to move forward on this.
    A month later, I write to General Petraeus on September 
25th in emails we provided to the Committee and I explained To 
General Petraeus that we have a massive corruption problem in 
the pharmaceutical system inside of Afghanistan and that we 
think it is going to eventually rise to the point where it is 
going to require the removal of a general officer, which 
therefore would mean we are going to need to invoke and use the 
president of Afghanistan to assist us, since, as in our own 
system, nobody in the military has the authority to remove a 
general officer; it takes, in Afghanistan, the president of 
Afghanistan's approval to do that.
    So on September 25th I set the conditions with General 
Petraeus that is the result, now, of about 60 to 90 days of 
looking at this fairly hard. We now believe that it is all the 
way to the top, with General Yaftali being involved, and we are 
going to have to probably seek his removal. That continues for 
about another 30 days. Then on October 24th, Colonel Fossil 
sends me an email, my Command IG, and he explains to me that, 
sir, we've been in to brief the chief of staff of the command, 
which they had direct responsibility under on a day-to-day 
basis, and we have a problem with the pharmaceuticals that are 
going to require outside assistance. We are going to need to go 
outside the command.
    I, at that point, read his email that he said we said we're 
going to develop a course of action, we're going to go in and 
brief Dr. Kim, who is my civilian deputy, as soon as they could 
get him back from the trip he was on at that time. He came back 
on October 28th. They went in and briefed him on October 28th 
on the situation.
    As it has been said, it was clear that we were going to 
need outside assistance, and that initial notification was made 
to the Department of Defense IG that we were going to need 
outside assistance to help us deal with this, the ultimate 
objective being, we had hoped, that we would be able to remove 
a leadership at the top of the entire medical system, which 
was, in this case, General Yaftali. Therefore, we wanted to 
make sure we had some good information.
    At that point in time, when the email was sent that night, 
we had not yet finished the necessary and critical coordination 
that I, the month earlier, had shared with my whole command 
team and with General Petraeus, was that to remove General 
Yaftali is going to eventually require the president of 
Afghanistan's involvement. So at that point in time we went 
ahead, I told the team, let's finish the necessary and proper 
coordination, and as soon as we have that complete I will make 
this an official request back to the Department of Defense IG.
    Meanwhile, the coordination continued with them, both from 
within my own staff and then personnel I had back here in 
Washington conducting our semiannual programmatic review being 
held here in Washington with about 150 different personnel from 
across the U.S. Government that were there, to include the 
Department of Defense IG.
    So we finished that necessary and critical coordination 
that needed to be made, reaching the president of Afghanistan, 
finally knowing that he's been notified on November 9th, and 
that on November 10th that request was then sent as an official 
request to the Department of Defense IG, asking them to come on 
over and assist us in this investigation.
    Mr. Chaffetz. I thank you for sharing that. I have a series 
of questions. My time has well expired.
    Let me recognize, first, Ranking Member Tierney.
    Mr. Tierney. Thank you.
    General, so you came in in 2009?
    General Caldwell. That is correct.
    Mr. Tierney. So obviously this wasn't a problem that 
started the day you came in. So I am curious to know what 
information was provided to you upon your assumption of the 
command. Did you have reports indicating rampant corruption, 
problems of the nature that we saw in the photographs that were 
displayed here? What was the state of play when you assumed 
command?
    General Caldwell. We knew, like always, there were 
challenges with patient care, but the images that we saw this 
morning, the patient neglect, the first time that was ever 
brought to the command's attention, or shown to the command, 
was on November 10th, when my command----
    Mr. Tierney. Of what year?
    General Caldwell. I'm sorry, Congressman, on November 10th 
of 2010.
    Mr. Tierney. So there were no reports in 2005, 2006, 2007, 
2008, or 2009 to anybody in your position or your command 
structure of those types of conditions?
    General Caldwell. I didn't necessarily thoroughly review 
every previous report for years before, before I went over 
there, specifically about possible patient neglect in the 
hospital. I was aware generally of the aspects of the medical 
care within Afghanistan in the system that we are using, so 
that within the first 30 days there some of the immediate 
critical people that I went back to General McChrystal on and 
said that I absolutely had to have assigned to my command 
involved getting some additional people to work in the medical 
system.
    Mr. Tierney. So I guess my question is obviously these 
conditions are pretty obvious to anyone. Now, we had a number 
of mentors and people in the facilities. They may not have been 
performing the care, but they were there and they were 
observant or able to observe all of this. What do you think is 
the problem with our system that nobody raised this to the 
appropriate level of attention for people in a command 
position?
    General Caldwell. Well, again, about all I really know is 
that the first time my command----
    Mr. Tierney. I am just talking structurally here; I am not 
asking why a particular individual may not have heard anything. 
But is there something wrong with the way that we are operating 
and the way that our command structure is that something like 
that wouldn't be reported up with some alarm?
    General Caldwell. No. What I would hope, and the reason it 
was reported up, I mean, it was my command that identified and 
reported this to our command leadership on the evening of the 
10th of November. And, again, the second it was identified to 
us, we took decisive and immediate action. I mean, it wasn't a 
question----
    Mr. Tierney. I am not disputing that. I guess I am 
disputing you weren't the first guy at the rodeo, so what 
happened to the others. Is there something structurally wrong 
that the others didn't feel as compelled as you did to bring 
this forward?
    General Caldwell. Well, Congressman, I could say there are 
a lot of people that went through that hospital before that 
time period. There were always challenges with patient care, 
but none of us going through that medical hospital, prior to 
that, had seen the patient neglect that we saw in those images 
that were just on the screen. I mean, there were time periods 
during 2010 when I was in that hospital, and when I would go, I 
am not naive enough to not realize that when somebody knows I 
am coming someplace, they are going to have a set schedule for 
me and things that they want me to see.
    So I did deviate each time I went through that hospital and 
was visiting there, to look for other things and just to get my 
own personal assessment of areas that they weren't prepared for 
me to go to. My command sergeant major, my senior non-
commissioned officer, went through that on a monthly basis, and 
clearly they didn't prep for his visits.
    You know, there were a lot of external looks that were 
going on in addition to those. Part of our challenge was we 
didn't have the number of people in the hospital, really, 
providing the oversight inside the hospital until about August 
of 2010, when we really put our first two mentors in on the 
wards and started giving us some real day-to-day look at what 
was going on in there, because we just didn't have the depth.
    Mr. Tierney. So prior to that the people had been doing 
their mentoring offsite?
    General Caldwell. Offsite or over in different headquarters 
or different locations. Again, we also had the six regional 
hospitals, two where we operated out at. Part of our focus that 
year, and, again, I give great credit to my command surgeon for 
doing this in 2010, was he implemented that year two really 
critical programs. One was we recognized that all the work for 
these previous eight years of trying to develop doctors was 
failing. It was a waste of U.S. Government taxpayer money to 
take the time to educate a doctor, because what we found was, 
in the end, about a third went AWOL and then the others would 
refuse to take assignments to the difficult locations where 
they needed to go.
    So recognizing that we are dealing with a country that 
probably has one of the poorest health care systems in the 
entire world, we decided to develop a physician's assistance 
course, something that would be much shorter and would give us 
much greater numbers to get out to provide immediate care to 
much larger numbers of the Army team in the Afghan Security 
Force. So in 2010 we implemented the first ever physician's 
assistance course, put that into being, and it was in full 
operation by that fall. We started the first real combat medic 
courses. Again, a trait that we had learned U.S. military 
members was if you have very good combat medics down on the 
front line when somebody does sustain an injury, that immediate 
care on the site can really make an enormous difference in 
their long-term survival.
    So we implemented a very rigorous and deliberate combat 
medic course that year and that was in full swing, to the point 
where, by the end of 2010, not only had we implemented it, 
which was always important, but as we talked about teaming with 
the Afghans and setting the conditions for transition, we had 
also set the conditions up so that they now, by the end of 
2010, were teaching the course themselves, with us just 
providing oversight and on-the-spot assistance, which was an 
enormous step forward for a country that never had this kind of 
capability before.
    So there were many things being done in the medical system 
with the folks that we had, trying to provide greater care for 
the military soldiers.
    Mr. Tierney. Thank you.
    I yield to the Chairman.
    Mr. Chaffetz. General, you said that you took, when you 
knew there were problems, immediate, decisive action. Yet, we 
had three colonels come testify that is exactly what didn't 
happen. Are they wrong?
    General Caldwell. Chairman, what I can tell you, and I can 
validate it with the emails that we have been able to provide 
so you can read the actual discussions ongoing, of which the 
members, those who are here before you, were also on those 
exchanges, on the evening of the 10th of November, in a teamed 
effort between the Ministry of Defense IG and my Command IG who 
went over to do a spot check of the hospital, they found those 
unacceptable conditions as you showed on the slide there.
    They brought it back, immediately brought it to General 
Naismith, who was the Brigadier General, the one star who had 
oversight for all the advisors and trainers inside or all the 
advisors inside the Army team. As soon as he got that note, and 
it is interesting to note my IG did not include anybody on the 
medical team on that note to him, he immediately took decisive 
action; he didn't have to brief anybody else in our command 
team.
    And, again, nobody had even seen photos at this time. He 
was acting off of my Command IG saying I have gone over, 
performed my duties as I am supposed to be doing, had taken my 
Afghan counterpart to teach him how to do this, and here are 
the things we found: there is no hot water in the hospital 
right now, the boiler is down; I am seeing piles of, as he 
described----
    Mr. Chaffetz. And this was known months and months in 
advance; this is not a new revelation as of November. With all 
due respect, General, this had been highlighted for years in 
problems with the IG reports; it had been specifically 
highlighted with Colonel Carosa in his August memo to you. You 
highlighted this with General Petraeus.
    The problem is when Colonel Fossil sends a request asking 
to, sends an email on October 28th to Ambassador Moorefield, I 
am writing to request your assistance with an inspection 
investigation, it goes on. Later he has to write an email: I 
spoke with Lieutenant General Caldwell this evening about the 
email below; Lieutenant General Caldwell respectfully requests 
we not move on this request for assistance.
    General Caldwell. I think if you read the rest of that, 
Chairman, it says until he makes notification to General 
Petraeus.
    Mr. Chaffetz. Which you had already, it does say request 
for assistance until he briefs General Petraeus. But it is also 
clear that General Petraeus was briefed in the months before. 
There was no new information for General Petraeus.
    General Caldwell. Chairman, if I could just help with 
clarification. We are talking two issues: we are talking 
corruption and we are talking patient neglect, very separate 
and distinct issues. All of the email trails through the period 
of August, September, and October are on nothing but 
corruption. Not one of them from any member of any staff ever 
talks about patient neglect.
    And I have been unable to find any discussion whatsoever in 
going back through briefing slides and briefings that my 
command surgeon gave to me, that my command surgeon gave to 
General Petraeus, that my IG reported during that time period. 
There is not one thing I can find during that, but I can find 
lots and lots and lots of discussion between all of us, because 
we recognized that the corruption that was in that system 
emanating from what we determined to be the command surgeon, 
General Yaftali, was in fact eventually leading to the 
challenges that we were having with patient care in the 
hospital.
    I am not talking about patient neglect, but just routine 
patient care; the apathy of the doctors and some of the nurses, 
the inability to make sure that they are doing their work 
times, the constant work we had teaching them about cleanliness 
and standards.
    It is interesting, as I talked to some of the advisors who 
had been in that hospital for many years, retired military 
surgeons, as we talked about, well, why aren't they doing more 
cleaning, you know, one of those retired command surgeons 
looked at me and said, well, you do understand, sir, three 
years ago you wouldn't have even found a bucket and a mop in 
here; now there is a bucket and a mop that is used a couple 
days a week; we just not have to get them to use it multiple 
times a day.
    Mr. Chaffetz. We are way past your time, but, to clarify, 
in your September 25th email to General Petraeus, you say, 
``Activities include diversion, hoarding, and theft of U.S. and 
Ministry of Defense purchase medication, resulting in hundreds 
of ANA soldiers being denied treatment.''
    General Caldwell. That is right. The proper patient care, 
that is correct, chairman.
    Mr. Chaffetz. But what you said was there is no evidence in 
any of these emails indicating that there was any patient 
neglect. Not getting a pharmaceutical, not getting an 
anesthetic during surgery, I would think does highlight the 
fact that there was an awful lot of neglect and abuse going 
there, and that is precisely what you, in your own words, said 
to General Petraeus back in September.
    General Caldwell. That is correct, Chairman, I am talking 
about patient care and I am talking about the fact that they 
need pharmaceuticals down at the lowest patient level, that we 
needed to use all the proper hospital equipment and supplies 
that we are purchasing and making available to them, and it 
starts with--and I was concerned about that corruption. But I 
am talking about patient care.
    The pictures that you showed, Chairman, if I could just try 
to help, please, clarify this, that is patient neglect. That is 
unacceptable. There is nobody in a uniform that is going to see 
those kind of deplorable conditions and accept that. And I can 
assure you of that.
    Mr. Chaffetz. But that is precisely what these colonels 
said, saw, shared with you. That is why we had three colonels 
come before this Committee and saying that you were the one 
that was preventing bringing in additional resources. That is 
why we are here today. That is why you are here.
    General Caldwell. Chairman, I understand that. And what I 
am trying to help you understand is the facts as they actually 
occurred. I don't question for one minute that everybody was 
very concerned. But I am concerned at this point that people 
have gotten their dates and events and activities confused, and 
I am trying to use the emails to help provide factual time 
lines for you as to who brought what to what person's attention 
and when they did that.
    Mr. Tierney. If I can reclaim my time, which is a bit over 
on that.
    You are making a distinction, General, between neglected 
patients and corruption, and you put the lack of pharmaceutical 
supplies getting to their in-patient under the corruption 
aspect umbrella of this, and not necessarily the patient care 
or neglect, as we said, separately? It was the second end of it 
that you felt hadn't been fully reported to General Petraeus, 
and it was that that you wanted to get reported to him before 
you went forward with the IG?
    General Caldwell. When I wrote that email on September 
25th, I was trying to set the conditions with him that we 
thought we would eventually have to go to the president of 
Afghanistan to seek the removal of the surgeon general of the 
Afghan Army because we felt he, in fact, not only was involved 
in corruption, but also was setting the poor overall----
    Mr. Tierney. And that had not been brought to General 
Petraeus prior to that?
    General Caldwell. I think everybody knew we had challenges 
all the time in the medical system, but, in fact, the idea of 
the corruption emanating all the way, at this point we had 
decided, to the top of the ladder, to the surgeon general of 
the Afghan Army, I do not know of anybody prior to that 
bringing that to his attention.
    Mr. Tierney. Thank you.
    Mr. Chaffetz. Thank you.
    I know the gentleman yields back, but one of the 
frustrations we probably have on both sides of these aisles is 
you said that these emails and documents provided for 
clarification. We got them at 4:00 yesterday, roughly 80 to 100 
documents, despite this Committee requesting to get those 
emails and all of the information so this Committee could 
review it. This is an ongoing practice; it goes above and 
beyond what happened here in this situation, but it's 
unacceptable.
    The Committee cannot do its job unless 100 percent of the 
documents are provided to this Congress. This has happened time 
and time and time again. It's wholly unacceptable and, General, 
it's very frustrating for you to cite and say, well, we 
provided these emails for clarification, when we got them at 
4:00 last night and we've been looking at this for months.
    I now recognize the gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman, and thank you for 
calling this hearing and the previous ones that you have. And I 
want to thank my friend from Idaho for letting me go ahead of 
him, despite his seniority.
    General Caldwell, I want to thank you for your service to 
the Country and then I want to get into the chronology. It 
seems to me that on September the 3rd, 2011, an article that 
negatively portrayed the hospital and our involvement with it 
appeared in The Wall Street Journal.
    Now, Chairman Chaffetz, I missed part of your opening 
statement. Would you be gracious enough to perhaps share just a 
couple of the more salient examples from that article about 
abuse and neglect at the hospital? Just a couple if you have 
them. I apologize, I was in another Committee hearing when I 
missed it.
    Mr. Chaffetz. There were a series of very graphic photos 
and very specific allegations of patient neglect. And the other 
thing I would highlight here is that on September 3rd, General, 
you sent to General Allen an email about The Wall Street 
Journal article and said, ``Did not contain any of the items, 
concerns we had previously discussed. Rather, it focused on NMH 
and Afghan leadership.'' You also stated it's clear that the 
author, Maria, was provided emails and internal briefings and 
pictures by someone within the command which confirmed that we 
have all suspected from earlier discussions.
    It was obviously clear to you that there was a lot of 
patient neglect going on. This goes back into September 3rd. 
And you testified--my concern is the General just said that he 
had no emails, no information that this was happening.
    Mr. Gowdy. So, Chairman, if my chronology is correct, we 
have a negative article on September the 3rd, 2011; we have a 
letter from our colleague, Congressman Kaufman, on September 
the 7th, 2011; we have an article in the Army Times on 
September the 7th, 2011; and then we have a new policy 
promulgated, a memorandum that sets forth a new policy, 
Chairman Chaffetz, not surprisingly, on September the 12th, 
2011. So in the course of less than 10 days we have a negative 
story, a congressional inquiry, an article in the Army Times, 
and then we have a new policy.
    So, General Caldwell, my question to you, with specific 
reference to this policy, one of the goals of the policy is to 
promote a positive image of coalition forces, and this memo is 
specific with respect to persons assigned or attached to 
command surgeon medical training advisory group. Wouldn't you 
be more interested in an accurate image being portrayed, as 
opposed to a positive one? I mean, if the reality is bad, then 
why is it so important, nine days after a negative story, to 
stop the photographs?
    General Caldwell. Congressman, at the time I was not aware 
of this memo; I have been made aware of it since. I do know 
that last week this Committee did get deposition from the 
command surgeon as to the chronology and events and activities 
starting around, I think, I believe it was the April 2011 time 
frame when this memo----
    Mr. Gowdy. Would you agree with me it is more important to 
show a realistic, accurate portrayal of what is happening, as 
opposed to just wanting to focus on the positive? I mean, we 
would all like to live life only highlighting the positive, but 
that is not our job on this Committee. We are interested in 
what was really happening. So why, nine days after a negative 
article, do we get this memo restricting what can be disclosed 
and telling folks that we want to assert a positive image?
    General Caldwell. Again, Congressman, I didn't review the 
memo; I wasn't associated when that was released. I was in 
command there, but my command surgeon did start putting that 
memo together back in the April time frame, and it took many 
months before it was completed because of the reviews that were 
done, all the way up to the CENTCOM headquarters, to ensure 
that proper wording and clarification as to what was being 
sought after, and the intent behind the memo, as I now 
understand it, and, again, she gave deposition to this 
Committee last week in pretty exhausting detail, as I 
understand, explaining everything about this memo. But her goal 
was to ensure that we weren't violating any privacy rights of 
individuals----
    Mr. Gowdy. And, General, I agree that is a worthwhile goal. 
It just makes me wonder why it took so long to promulgate a 
memo to protect that goal. You see, my point is the chronology: 
negative story; let's issue a memo that makes sure this never 
happens again. You are talking about patient protection. 
Patient protection was just as important an issue the day that 
we showed up at that hospital; it didn't just become important 
in September of 2011. It is the timing of it. You don't have to 
be cynical or skeptical to question the timing, the chronology 
of this, I don't think, do you?
    General Caldwell. I believe, again, Congressman, that this 
memo was started being drafted in April, and it took about four 
months. There was absolutely no connection, as I understand she 
said in her deposition, between when she finally got it back, 
approved for release by both the ISAF headquarters and the 
CENTCOM headquarters, who had to review it and approve it both 
through legal channels up there before this could be released 
and when it got released. As I understand from her, there was 
absolutely no correlation between the two.
    Mr. Gowdy. But when you see a negative article in a widely 
read publication, you have a letter from a member of Congress, 
you have an article in the Army Times, and within the course of 
less than 10 days you have a memo telling people to do things 
differently and promote a positive image, you could see why we 
might be skeptical of that chronology.
    General Caldwell. Right. I think the intent of her memo was 
telling people that, with respect to the rights of each Afghan 
citizen, it is a sovereign nation you are operating in, if you 
have photos that we think we need to record and provide, let's 
do it through official channels. There is no objection to doing 
photos, but if we are, they need to be done in an official 
manner, properly controlled through official channels.
    Mr. Gowdy. And I agree with all that. It just makes me 
wonder why the memo wasn't promulgated a lot sooner. Those are 
very important concerns. So important that you would want that 
memo out maybe the day after the thought crossed your mind, 
that we want to protect patient security. I just find the 
chronology to be curious.
    General Caldwell. Within 30 days of her coming in and 
assuming her job as the command surgeon, she identified this 
was an issue that had not yet been addressed and she----
    Mr. Gowdy. Who was her predecessor?
    General Caldwell. Was Colonel Geller.
    Mr. Gowdy. He did not think patient security was as 
significant an issue as she did?
    General Caldwell. I can't speak for his thought process. I 
can just tell you----
    Mr. Chaffetz. Would the gentleman yield?
    General Caldwell. --she identified this within 30 days of 
her taking over as the command surgeon as an area that had not 
yet been addressed by somebody, and she took it on to make sure 
that it was properly addressed.
    Mr. Chaffetz. Would the gentleman yield?
    Mr. Gowdy. Sure.
    Mr. Chaffetz. General, why was it the policy that the 
photos should be destroyed? Why destroy evidence? Why not turn 
this over to the inspector general?
    General Caldwell. I think--and, again, as I have, after-
the-fact, now read this memo, as I understand the memo, it 
says----
    Mr. Chaffetz. But, General,----
    General Caldwell. --if you have photos, turn them over to 
official authorities. It doesn't--it says if there is a photo 
that needs to be retained, it needs to be retained in an 
official----
    Mr. Chaffetz. No it doesn't. It says unofficial personal 
photos or video or audio recordings of patients or health care 
events taken by personnel subject to this policy which already 
exist will be destroyed or deleted.
    General Caldwell. I believe it is either the paragraph 
right before or after that one, Chairman, that is clarifying 
that if you have personal photos that need to be retained in an 
official manner, to please do so.
    Mr. Chaffetz. We will dispute that. It is in black and 
white. We will look at this. And I guess one of the questions--
we are well over our time here--is how is it that it takes four 
months to issue a memo, and you are the commander, and you 
didn't even see it? You say you had no idea that this went out; 
I have never read it; I didn't know about it. How can that be 
that it goes out on your letterhead and you say you don't even 
know about it?
    General Caldwell. Chairman, there are a lot of things in 
the command that I would expect my subordinates to do the 
proper and right thing, and if they are doing the proper and 
right thing, they don't have to show me everything. If they 
believe it is something that is contrary to what we have done 
before, if it is a change or something, I would hope they would 
bring it to my attention. But she had this fully within her 
authority as the command surgeon, and I would have expected 
her----
    Mr. Chaffetz. And Colonel Fossil did not have authority to 
ask the inspector general to come in and help him out?
    General Caldwell. No, he would have absolutely had that 
authority.
    Mr. Chaffetz. You pulled it back.
    General Caldwell. Our command was making a request to 
request outside assistance on October 28th, and when they did 
and we had not finished the necessary and proper coordination, 
we had not notified the minister of defense and we had not told 
the president of Afghanistan--again, I go back--you asked me 
why my statement, Chairman, was written as it was.
    Because if you don't understand the tenets on which we were 
operating under, the idea that we team with our Afghan 
counterparts, that we have transparency with them, that we are 
not going to try to do something that we are not going to look 
them in the face and say you have a corruption problem. I had 
been telling the minister of defense and his key officials, but 
we had not yet gone to the president of Afghanistan and also 
told him.
    So we asked them to make sure that he was told before we 
made that. But it did not stop any of the ongoing coordination 
that occurred between the Department of Defense and our team. 
In fact, on the 4th of November----
    Mr. Chaffetz. I guess I would disagree with that, General. 
I would disagree with that.
    General Caldwell. All right.
    Mr. Chaffetz. We will continue to explore this. We have 
gone well over time.
    I thank the gentleman from South Carolina.
    Mr. Gowdy. I thank the Chairman and I thank the gentleman 
from Utah for his indulgence.
    Mr. Chaffetz. We will recognize the gentleman from 
Massachusetts.
    Mr. Lynch. Thank you, Mr. Chairman.
    General Caldwell, I want to put this in context. Your 
responsibilities at the time all this going on is not just for 
training and the oversight of Dawood Hospital, but also what 
else were you responsible for?
    General Caldwell. Congressman, I had the responsibility to 
literally recruit, train, equip, man, and to professionalize an 
entire army, a police force, and an air force; to also help 
develop two complete ministries, the ministry of defense and 
the ministry of interior; and build all the supporting and 
associated systems that support all those entities.
    Mr. Lynch. So what is the size of your command, personnel-
wise?
    General Caldwell. Personnel-wise, I have about 7,500 
personnel on a day-to-day basis that are working with us to 
help us accomplish that mission. But a large Afghan contingent 
that works day-to-day----
    Mr. Lynch. And what is the size of the--I know all the 
members on this Committee have been to Afghanistan many times, 
including myself. How many trainees, how many recruits are you 
talking about on the Afghan side?
    General Caldwell. On a daily basis, we probably had, when 
we were up to full production, about 24,000 Afghans in some 
sort of training program.
    Mr. Lynch. Okay. As has already been talked about here, we 
are talking about the fourth poorest country in the world, 
Afghanistan. The literacy rate, the last numbers I got from 
being over there was that literacy rate among males is about 17 
percent; females is about 10 percent. From my own observation, 
no reliable infrastructure. I think 92 percent of the country 
has no electricity.
    And corruption, I wear a couple of hats; I also serve on 
the Terrorist Financing Task Force here in Congress, and having 
been over there many times, and dealing with that problem and 
the problems with the Kabul Bank, I honestly believe that, 
well, corruption is to Afghanistan like wet is to water. It is 
rife with corruption. So I understand the context in which all 
of this is going on and I want to get right at it.
    There were some allegations in the previous hearing, and 
they are part of this investigation, that, General Caldwell, 
you may have inappropriately delayed a request to the Defense 
Department Inspector General based perhaps in part on his 
concerns about the 2010 congressional elections, your concerns. 
The command inspector general testified that you brought up the 
elections and expressed your concern due to your relationship 
with the President.
    Now, look, I have followed your career. You have had a 
distinguished career serving this Country. I am going to ask 
some questions about this because I don't want you leaving this 
room without clearing this up.
    The allegation of interference under an investigation by 
the inspector general basically says that you delayed this 
request because of your concern for the election, and I want to 
ask you right now, under oath, did you make these statements?
    General Caldwell. No, I did not.
    Mr. Lynch. Okay, were there any other statements that might 
have been construed as being the underpinnings of these 
allegations?
    General Caldwell. Congressman, on October 28th, when my 
command sent that request to the Department of Defense IG, we 
had not yet finished and completed the necessary and critical 
coordination with the ministry of defense and the president of 
Afghanistan. I had not yet even come back to my boss, General 
Petraeus, even though that email unfortunately said we don't 
have to inform General Petraeus.
    We may not have to, but I would think that, as a good 
subordinate commander, I'm going to need his help to remove 
this surgeon general. It is going to have to go to the 
president of Afghanistan. I will desperately need General 
Petraeus's help. So I absolutely do want to inform him because 
I am going to need his assistance one more time, as I had told 
him the month before that I would be coming back for his 
assistance if it got to that point.
    So on that evening, because we had not finished the 
necessary and proper coordination, I told my IG, and, again, I 
have the email. I can share with you exactly what he sent back 
to the Department of Defense IG saying that I do concur with 
the substance of this request but, again, want to finish the 
coordination. And there is an ongoing dialogue that takes place 
that night between my command IG and the Department of Defense 
IG that supports that and, again, it concludes that evening 
with my command IG telling the DOD IG thank you for your timely 
response and understanding. Appropriate staffing of this 
request will occur internally tomorrow. Lieutenant General 
Caldwell will inform General Petraeus of his concerns.
    So I think my command IG knew exactly where I was coming 
from because he was able to convey that to the Department of 
Defense IG as to why I wanted a few more days before we ``made 
an official request'' to move forward. But it did not in any 
means not enable us to continue the coordination. In fact, my 
deputy commanding general for programs, who was back in the 
United States at that time, met with and also talked to the 
Department of Defense IG that next week, on the 1st or 2nd, up 
in his office, to continue the dialogue about this request, 
because we were moving forward with it; we just wanted to give 
the opportunity to make sure we had informed the president of 
Afghanistan.
    In the ensuring discussions, as I was explaining to my IG, 
when you don't do the necessary and proper and, really, 
critical coordination here in this, you can have second and 
third order effects, and it was in that second and third order 
effects that I said, and there was a lot of things going on, 
like the elections in the United States and other things, where 
there may be somebody who would want to take and try to perhaps 
use it in a way that was not intended to be. So just do the 
necessary and critical coordination and there won't be any 
unexpected second and third order effects if we do that which 
we are supposed to be doing. It had everything to do with the 
necessary and critical coordination, and absolutely nothing to 
do with the national elections.
    Mr. Lynch. Mr. Chairman, I just ask for indulgence to 
continue this line of questioning. We have gone over the time 
limit on a couple of occasions here.
    General Patton, I want to ask you. There were also 
allegations at the previous hearing that you may have 
communicated a similar message to people that you were working 
with, subordinate officers in particular, about the importance 
of the congressional elections and the conditions and the 
requests that were due to be made with respect to the 
Department of Defense assistance in this case. Did you make any 
statements to that effect? And if you did, why did you make 
them and what were they?
    General Patton. Congressman, thank you for that question. I 
never directed subordinates, nor received orders from 
superiors, that a request for DOD IG visit be either delayed, 
impeded, or avoided for any reasons, to include political 
reasons. The subject of the elections was briefly discussed and 
dismissed in a staff meeting that I chaired on 29 October. And 
as Congressman Tierney mentioned in his opening statement, my 
recollection of that meeting was that the subject of the 
elections were discussed and dismissed, discussed very briefly 
and dismissed, and had no impact on my decisions or actions 
that had to do with the DOD IG request.
    We turned our attention to the focus for the meeting, which 
was, as General Caldwell explained, development of strategy for 
the notification of the minister of defense and senior Afghan 
officials so that we could gain their support and cooperation 
with a DOD IG visit. We thought that was a critical condition 
that needed to be set in order for any visit to the hospital to 
be successful. So we really set about--that was the primary 
focus of that meeting.
    And that recollection is also shared and it is consistent 
with the recollection of Coast Guard Captain Steve Anderson, 
who testified before this Committee on 24 July, in that the 
subject came up briefly and was dismissed, and we moved on to 
other subjects in the meeting. And I would say it surfaced in a 
discussion on the operational environment at the time. The 
elections were occurring within the next week. The other things 
within the operational environment we discussed was the Islamic 
holiday of Eid, which was occurring around the middle of the 
month.
    Mr. Lynch. Okay, I think you have answered my question.
    Ambassador Moorefield, sir, can you recall at any point, at 
any time during your inspections and site visits, did you 
receive any information that General Caldwell or General Patton 
were attempting to interfere with your efforts based on the 
election or otherwise?
    Mr. Moorefield. Mr. Congressman, thank you for the 
question. No, we never received any indication that there was 
any attempt ongoing to delay our investigation or even turn it 
off. In fact, when we originally received a message from 
Colonel Fossil, I think it was the 28th of October, and 
notwithstanding his subsequent message that they would like to 
have time to take care of certain internal business with 
respect to General Petraeus, and I can't remember exactly what 
was in every message, but I know I talked to a number of 
officers in the command, in any case, also to get General 
Wardak, the minister of defense, onboard.
    These were not unusual requests; they appeared to be in the 
context of trying to enhance the prospect of the success of the 
initiative. And, in any event, we were on a very fast track 
trying to organize ourselves to deploy, which normally would 
take one to two months. And although I wasn't exactly certain 
on October 28th the timing, but we were preparing ourselves to 
get out there right after Thanksgiving, which is what we did.
    Mr. Lynch. Okay.
    Mr. Chaffetz. I would be happy to come back to the 
gentleman, if I could.
    I would like to recognize, if I could, the Chairman of the 
full Committee, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. I will be brief.
    General Patton, General Caldwell, Ambassador, have each of 
you received, because you do operate in assignments that 
require that you be nonpartisan, nonpolitical, have each of you 
received throughout your careers information and orientation 
about that requirement?
    General Caldwell. We have, Chairman.
    Mr. Issa. From the time you were a better bar, right?
    General Caldwell. From the time I was at West Point, that 
is correct, sir.
    Mr. Issa. Oh, I am sorry. I don't go back to plebe.
    General Caldwell. Yes, sir.
    Mr. Issa. General Patton?
    General Patton. Yes, Mr. Chairman.
    Mr. Issa. Mr. Ambassador?
    Mr. Moorefield. Yes, sir.
    Mr. Issa. So, for the record, it is, in your words, I would 
ask you each to say it in your own words, it is inappropriate 
for anyone in the uniformed services or anyone in the State 
Department to ever do anything that affects or could affect 
U.S. elections as a consideration of their required duty. But 
please use your own words of where you think the prohibition is 
based on that training.
    General Caldwell. Mr. Chairman, you are exactly correct, it 
is inappropriate for us ever to allow any kind of political 
influence whatsoever to ever enter into any kind of decision 
making process or actions that we are taking.
    Mr. Issa. General Patton?
    General Patton. Mr. Chairman, I would echo that; at no time 
should a political factor, such as elections, enter into our 
decision making or influence our actions.
    Mr. Issa. Mr. Ambassador, you have a slightly different set 
of guidelines. Would you please give us your interpretation?
    Mr. Moorefield. Well, thank you, Mr. Chairman. Actually, I 
was a military officer too, so, as far as I was concerned, that 
ethos carried through. When I was a foreign service officer, we 
were apolitical and dealing with the substantive issues, not in 
any way related to the political environment.
    Mr. Issa. Well, hopefully each of your words will be echoed 
through the uniformed services and the State Department, lest 
anyone have a different view. I have historically viewed 
military people to be so apolitical that it is only in the deep 
dark of late in a CODEL that someone will say I bet you are a 
Republican, and that is about it, and to the great extent the 
nonpolitical appointees of the State Department.
    I would like to take an opportunity, even though it is not 
the subject of this hearing, Ambassador, on behalf of myself 
and I am sure every member of Congress, to express our 
condolences for the loss of your colleague. I knew Chris 
working that region and it will be a great loss to the State 
Department, and I think that we all feel from the dais.
    Mr. Chairman, I yield back.
    Mr. Chaffetz. I think we will now recognize the gentleman 
from Idaho, Mr. Labrador.
    Mr. Labrador. Mr. Chairman, I would just yield back.
    Mr. Chaffetz. If you could yield to me for a second.
    I would like to, consistent with where we were going and 
what we are doing, I would like to show, there are two clips 
and I would like you, without filtering from myself, I would 
like to show you those clips, hopefully the audio will be 
adequate, from our previous hearing and then have you respond 
to each of these.
    [Audio recordings played.]
    General Caldwell, your response?
    General Caldwell. Thank you, Chairman. There are about 
three things there. One is, and I will try to walk through them 
as he made different statements there. One was that he was told 
to retract the request for the IG assistance that we were 
requesting, and, in fact, I think in his own words he writes, 
and I would like to quote because this is important to know 
what he said at that time. He perhaps has forgotten, but I 
would like to be very clear. He said, ``I spoke with Lieutenant 
General Caldwell this evening about the email below.'' That is 
the request for the DOD IG assistance visits. And he says, 
``Lieutenant General Caldwell respectfully requests not to move 
on this request for assistance until he briefs General Petraeus 
on this issue. He agrees with the substance of this email.''
    So the wording that he used was not the wording that he 
used that night in going back and explaining to Ambassador 
Moorefield what we were trying to do was set the conditions, so 
we were asking him to hold on that until we had finished all 
the necessary and critical coordination.
    The second one, when he said he had not talked to Dr. Kim 
yet, that is an accurate statement. Dr. Kim and I had not 
talked at that point in time, so I was not aware of the earlier 
afternoon meeting that several of them had had with himself.
    I don't recall the other, the first of the meetings he 
refers to there, but I do recall the second one, when he was in 
my office, and as he says, I was upset, and I can tell you I 
was very concerned. I was upset, and the reason I was is for 
three reasons, and the first one is we had not yet set the 
conditions to team with our partners, so I hadn't informed 
General Petraeus, my superior, that we were going to bring an 
outside agency in and seek assistance, which would eventually, 
the only way this would succeed, the reason we were bringing 
this outside team in was to seek the removal of General 
Yaftali.
    So if we didn't bring General Petraeus in, the ultimate 
goal of bringing this team was to remove Yaftali and expose 
this corruption, and I would need the president of Afghanistan 
to acknowledge it and not deny it in the end. And, again, if 
you look at the events that occurred in the previous few 
months, there had been some death of Afghan civilians, 
accusations Americans were doing these things; there was some 
very tense relationships between General Petraeus and the 
president of Afghanistan. So I wanted to make sure that General 
Petraeus was aware that we were going to bring this 
organization in to help assist us, which eventually, the 
endstate being the removal for sure of Yaftali and then, 
obviously, the ability to now start fixing the medical system.
    I also wanted to include our Afghan partners. I was upset 
because I had not gone back to the minister of defense and told 
him I was going to officially do this. He and I, along with 
General Patton, had been talking to him for some time about the 
corruption we were seeing. He, himself, had launched his own 
internal investigation based on information we had given him, 
and yet they had not been able to bring it to a point where it 
would enable them to remove him. So I wanted to make sure he 
was on board.
    The second point was it stated in the email, that he wrote 
that evening back to Ambassador Moorefield, that we did not 
have to have, he said, P4's approval, referring to General 
Petraeus. We may not have needed General Petraeus's approval, 
but the ultimate objective of what we were trying to achieve 
through this would never have occurred without General 
Petraeus's involvement and association with this effort. I 
needed General Petraeus's help, and he was the senior 
commander, and if nothing else, out of just due courtesy and 
respect, I owed him to tell him what I was doing as I was doing 
it.
    So I was upset that he would say that when he full well 
know that, again, I go back to my three tenets. The tenet of 
transparency; be transparent with our Afghan counterparts, be 
transparent with my boss in what I am doing. Team with my 
Afghan partners, one of my tenets. We weren't doing any of 
that.
    And then the third point was it contained inaccurate 
information. He specifically states in that email, when he 
writes it, and again, we met with Dr. Kim today and he has 
brief General Caldwell on the prospect of this DOD IG spoke 
conducting this inspection assessment. Lieutenant General 
Caldwell and Dr. Kim welcome your involvement.
    Well, that was an inaccurate statement. I had not yet been 
briefed and I did not yet know about this. So we were in fact 
telling the Department of Defense IG's office something that 
was inaccurate.
    Mr. Chaffetz. What was the date on that, again?
    General Caldwell. Again, this is the evening of October 
28th.
    Mr. Chaffetz. But the first week of September you had a 
Wall Street Journal article, the things that Mr. Gowdy talked 
about. You're telling me you just dismissed that? You sent it 
to your commander.
    General Caldwell. Chairman, if I could, I believe you are 
referring to 2011, not 2010. I don't want to correct you, I 
just----
    Mr. Chaffetz. No, no, I want you to. I want to have this 
clarified.
    General Caldwell. No, I think The Wall Street Journal 
article occurred in 2011.
    Mr. Chaffetz. Right. Exactly.
    General Caldwell. This was still in 2010. So I was upset 
with my IG because for the sake of just a few hours--I was 
returning that evening from traveling to one of our training 
sites inside of Afghanistan, coming back to the headquarters, 
and everybody knew I would be back that evening. For the sake 
of a couple hours, we could have waited and brought me in and 
briefed me, and my first response would have been we absolutely 
need to do this. We have been talking about doing this for 
months. We set the conditions with General Petraeus. In fact, 
what I do the very next morning, Mr. Chairman, is I sent 
General Petraeus a very detailed note explaining to him that we 
are going to do this, seeking his approval, let him know we 
want to move forward; and simultaneously General Patton, and he 
can talk about it, he pulls the team together and starts all 
the internal coordination that we were going to do to make sure 
we were teaming with our Afghan partners and being very 
transparent with them in how we were going to move forward.
    Again, if we were going to do this, we want to remove 
General Yaftali. That was absolutely essential. If he was not 
removed, anything we dealt with down at the lower levels would 
have been for naught, it would have been a temporary fix and 
the corruption would have crept right back in.
    Mr. Chaffetz. And, General, with the benefit of hindsight, 
granted, I am not there in real-time, dealing with all the 
other headaches that you have, this was not the only thing on 
your plate, and I grant it. I understand that. What I think is 
a disconnect for me in at least your approach there is that one 
would exclude the other.
    It seems to me that bringing in the resources of the 
inspector general would add to the case your ability to be more 
transparent, to understand what was happening in this 
situation. You knew from the beginning of your command that you 
didn't have the resources you needed to uncover all the 
corruption, again, not just at this hospital, but throughout 
the government. And what is concerning, the reason, and, again, 
if we had one colonel express an opinion, of course we would 
listen to that. When you have three colonels come before us and 
say this was just absolutely untenable and we did not get the 
resources, we did not have the support, we did not move as 
swiftly as we can, we were not as transparent, that is in part 
why we are doing this investigation.
    So with all due respect, I have gone way over my time. 
General, we will give you ample time to continue to respond, 
but let me recognize the Ranking Member, Mr. Tierney.
    Mr. Tierney. General, what was the time lapse between the 
time that you asked to retract the email to the inspector 
general and the time that you sent an email or directive to go 
ahead and invite him in?
    General Caldwell. It was about 12 days, Congressman.
    Mr. Tierney. And is there any discernible circumstance that 
changed inalterably because of that 12-day period?
    General Caldwell. No. Again, we used that 12 days--during 
that 12 days we continued all the coordination with the 
Department of Defense IG. That dialogue and discussion 
continued not only from my own staff from inside of 
Afghanistan, but also with my team that was back in the United 
States. So when we said to hold, it didn't mean stop working 
it. We kept working it the entire 12 days.
    Mr. Tierney. And then made an official----
    General Caldwell. And then with the Department of Defense 
IG, while simultaneously also doing all the necessary and 
critical coordination inside of Afghanistan, which General 
Patton was doing with the entire ministry of defense.
    Mr. Tierney. Ambassador, would you have been, your team 
have been in Afghanistan any sooner had that 12 days not 
lapsed?
    Mr. Moorefield. Not in my experience, Congressman Tierney. 
It normally takes 30, 45 days, under the best of circumstances, 
to organize and deploy a team and, in any case, for this 
specific mission I had reached out to the surgeons general of 
the Army, Navy, and Air Force requesting subject matter 
experts, so we were working that side of it, which was also a 
key component of our ability to properly carry out the mission.
    So, no, we were in full bore preparation for the mission, 
and the fact that we actually got out there by right after 
Thanksgiving is the quickest we have ever been able to respond 
to any mission, including several previous ones requested 
directly by General Petraeus.
    Mr. Tierney. Any of you might be able to answer this 
question. It seems that our process had been at least to 
provide the funds to the Afghan government, and once it got 
into their treasury, so to speak or whatever, we lost any 
control over it. Is that an accurate statement?
    General Caldwell. I know General Patton can talk to this 
because he did work the programs for a while, but what we did 
during the time period I was there was we went ahead and 
tightly controlled the money and monitored it all the way down 
to the lowest level that we possibly could. One of the things 
we were trying to teach them was how to spend money, how to 
properly go through the process of accounting for, doing 
receipts, coming back and being able to audit yourself as you 
do the expenditures. So things that perhaps my team could have 
done for them, we tried to bring them in and have them team 
with us so we could team them how to go through that system.
    Mr. Tierney. When it became apparent that some of this 
money was disappearing, I guess the question I have is why did 
we keep giving them money?
    General Caldwell. Congressman, we continued to purchase 
pharmaceuticals so that we would ensure that there were 
pharmaceuticals available for the Afghan soldiers.
    Mr. Tierney. But there weren't. The reports that we are 
getting is that there was so much corruption that sometimes 
they were getting altered pharmaceuticals or fake 
pharmaceuticals, and that they weren't getting the kind of 
treatment that you had hoped to get by providing the resources. 
So my question again is once it became evident that we weren't 
having those pharmaceuticals in their proper state get to the 
people on that, why did we keep giving them money?
    General Caldwell. And again, Congressman, there are plenty 
of examples I can give you during the two years I was there 
where we stopped providing fuel for aircraft, where we stopped 
providing the purchase of particular types of perhaps 
facilities for the Afghans when things didn't go well. I can 
let General Patton address it more specifically; he had direct 
day-to-day oversight more than I did.
    Mr. Tierney. All right. General Patton?
    General Patton. Thank you, Congressman. On the subject of 
the medical budget specifically, back in March of 2010, March 
is the month that is like our fiscal year; their solar year 
begins and ends, and their fiscal system is based on the solar 
year, so March is the end of one solar year and the beginning 
of another. And we noted that the medical side of the Afghan 
Army had under-executed its budget to the tune of 4 percent.
    That started giving us, that was a big warning there that 
they were not spending their funds. Again, part of making this 
an enduring system and solution in Afghanistan was to get them 
to understand how to manage their money, how to execute their 
budget, and we watched very closely the execution of their 
budget.
    So when we saw that they had only executed, at the end of 
their solar or fiscal year, 4 percent of their medical budget, 
we essentially took those monies back and reallocated them to 
other funds within the Afghan Security Force funds, namely, to 
pay for payroll and other areas. And then we required the 
senior advisor to the medical system, Colonel Geller, to report 
back on a regular basis on how the medical system was executing 
its budget.
    There was some improvement there, but it was a continued 
point of, so persistent effort with the Afghan medical team and 
a persistent point that I made with the Afghan Minister of 
Defense, Minister Wardak. And eventually, in the summer of 2010 
and into the fall of 2010, became a significant point where we 
saw the Afghans were under-executing their budget. We knew we 
were providing an excessive amount of pharmaceuticals in order 
to medicate a large portion of the Army, and yet we still have 
medical pharmaceutical supplies and medical supply issues and 
shortages in the hospital.
    At that point I recall the September time frame of 2010 is 
when Minister Wardak initiated his own investigation in the 
Ministry of Defense in order to look into the accountability of 
funds within his medical department and how those funds were 
being used or not used for pharmaceuticals, and then how those 
pharmaceuticals and medical supplies were being accounted for 
in the military medical system.
    Mr. Tierney. How did things change after General Yaftali 
got removed?
    General Patton. Sir, he was the root cause, and in my 
assessment there was dramatic changes in the hospital when the 
Afghans removed him. And, again, that was a presidential 
decision. But some of the things that we saw immediate 
improvement on, one, a patient bill of rights that General 
Yaftali had ignored during his tenure was immediately adopted 
by Minister Wardak and the new surgeon general, General 
Tutakhail, and the patient bill of rights was essentially a 
statement by which each soldier, each patient in the hospital 
had a post, it was written in their language and guaranteed 
them that their bandages would be changed, nurses and doctors 
would see them on a regular basis, medicines would be made 
available, fresh fruit and vegetables would be made available, 
that sort of thing. That was a significant step in the right 
direction.
    A second thing that occurred in that time frame was the 
adoption of the doctors' and nurses' letter of responsibility. 
It was essentially a policy that established the working hours 
for the nurses, established the working hours for the doctors, 
and established the responsibilities by which they would treat 
their patients. This had been rejected as a policy by General 
Yaftali. It was adopted by his successor and the minister of 
defense. And this occurred in the middle of December in 2010.
    And then one other significant move with the removal of 
Yaftali, it was not only the removal of him, but also the 
replacement and reassignment of 20-plus other colonels and a 
couple other general officers in the medical system, and their 
removal, replacement, and reassignment essentially cleaned 
house. And then we used that opportunity, I remember meeting 
with every medical advisor in the week after that decision was 
made and spent about an hour to an hour and a half with all the 
advisors and said we have to use this opportunity to drive 
positive change with the new medical team, the new medical 
chain of command, the new hospital commander, the new garrison 
support commander, and drive positive change with these people 
and the department heads in the hospital so that the effect 
would be that these systems would be put in place and the 
result would be improved patient care.
    Mr. Tierney. What is the likelihood that General Yaftali is 
coming back, as some have rumored?
    General Patton. That would be devastating and an 
unacceptable action at this point in time.
    Mr. Tierney. Is there any credence to the discussion that 
somebody may consider putting him back in?
    General Patton. Sir, I am not aware of that discussion.
    Mr. Tierney. General Caldwell, you are not aware of it 
either?
    General Caldwell. No, I am not aware of it, Congressman, 
but I tell you that is a red line, from everything we saw and 
that we were able to produce as a result of the Department of 
Defense IG being there with us for not only U.S. forces, but 
all of our NATO partners, too, to have somebody like that come 
back into that system.
    Mr. Tierney. Thank you. I yield back, Mr. Chairman.
    Mr. Chaffetz. I think we should probably recognize the 
gentleman from Massachusetts first. My apologies. The gentleman 
from Massachusetts.
    Mr. Lynch. Thank you, Mr. Chairman, and I will be brief.
    One of the things that keeps coming back to me is the 
underlying premise of these allegations, which have been 
refuted, that somehow the patient care in an Afghan hospital, 
treating Afghan soldiers and Afghan police officers, run by the 
Afghan surgeon general, who was found to be corrupt and was 
removed, that the conditions at that hospital and the 
investigation, which was delayed by 12 days, somehow that was 
going to affect the congressional elections in 2010. I just 
find that very, very hard to believe.
    Health care was a big issue in 2010, but it was U.S. health 
care, for the American people. That was a hot issue. So the 
allegation that this was somehow going to tip over the 
administration or usher in a sea of change in itself I think is 
very far-fetched.
    General, I just appreciate you coming here and getting that 
cleared up, and I appreciate your service to your Country. I 
mean, we have problems in Afghanistan; we certainly do. And a 
lot of them are homegrown there, and I think we have to 
reassess, as we go forward, about how long we are going to stay 
in Afghanistan. But that is a much larger question. I certainly 
thank you for your service and your effort to help our cause in 
that country. Thank you.
    I yield back.
    Mr. Chaffetz. I thank the gentleman.
    General Caldwell, on September 3rd, 2011, you emailed a 
copy of The Wall Street Journal article to General John Allen. 
In the email you said, ``Did not contain any of the items 
concerns we had previously discussed; rather, it focused on 
national military hospital and Afghan leadership.'' Do you 
recall what you were referring to? What was not talked about in 
that article? It is pretty extensive.
    General Caldwell. Chairman, the allegations that are here 
today that you are asking about were the same ones that that 
reporter brought to me in that time period, so, out of respect 
to my boss, I notified him immediately that these allegations 
had been made by somebody to a reporter; she was asking me 
about them; and that my intent was to sit down and walk her 
through and share with her emails, that is the reason I have 
them still today, of these exact things you are asking me 
about----
    Mr. Chaffetz. And again, General, with all due respect, 
part of the challenge we have on this Committee is you didn't 
provide them to us when we asked for them originally; it was 
4:00 yesterday.
    General Caldwell. If I could, Chairman, there was an 
ongoing Department of Defense IG investigation into this and I 
have previously--and, again, I don't know the system that works 
after that, but I have previously provided all those during--it 
is still an ongoing investigation, but I did provide all those 
to them.
    Mr. Chaffetz. And I guess that begs the bigger question of 
why those, when we request within the Department of Defense to 
provide all the documentation, they continue and routinely 
prevent that information coming to the United States Congress. 
We can't do our job unless we get that information. And it is a 
vital part of your perspective on this issue.
    Sorry, I interrupted. Continue. I don't know if you had 
anything to add to that.
    I want to go to another part of this email. You said, ``It 
is also clear that the author was provided emails and internal 
briefings/pictures by someone within the command, which 
confirmed what we have all suspected from earlier 
discussions.''
    You can see our concern when, within days, there is a new 
policy that is issued that says you are not only to have these, 
but to destroy these photos. Rather than turning them over to 
an investigator or the inspector, or something like that, 
destroy the photos.
    General Caldwell. And, again, I didn't even know about that 
memo during that time period, Chairman.
    Mr. Chaffetz. If we can pull up document page 1, this one 
right here. Document page 1. I hope we get this right.
    Afghan General Yaftali was suspected of stealing millions 
of dollars worth of pharmaceuticals from the hospital as part 
of a culture of corruption. On or about December 26th of 2010, 
Colonel Amrein was tasked with sending ``everything we had on 
Yaftali'' to the inspector general. But according to a January 
1st, 2011, email, General Patton, you directed her to ``reduce 
the documentary evidence that we provide.'' What does that 
mean?
    General Patton. Chairman, I have not seen this document 
recently, and I am certainly not familiar with the specific 
context of it. I will say I never ordered the destruction or 
delay of any documents pertinent to or requested by any 
investigation.
    Mr. Chaffetz. So here we have Colonel Amrein saying to 
provide everything, but she believes that you told her or 
instructed her--and I don't know how that happened--to reduce 
the documentary evidence. That is a fairly serious charge, sir.
    General Patton. Mr. Chairman, that is not my recollection. 
At the time I was spearheading the effort to remove General 
Yaftali from his position and I had weekly, sometimes daily, 
interaction with the ministry of defense and the chief of 
general staff. I took volumes of material to the minister of 
defense in order to secure the minister's and the chief of 
general staff's support for the removal of Yaftali, knowing 
that they would have to take their request for removal to the 
president of Afghanistan.
    And that was, I would say I was, together with General 
Caldwell, leading the charge in regard and in the effort to 
remove General Yaftali, so I would have been calling for as 
much evidence as possible. I personally carried evidence to the 
minister of defense, and it was all aimed with a bull's eye on 
Yaftali's head so we could remove him from his position and 
install a dependable and reliable surgeon general that could 
lead, then, some of the changes we have described here this 
morning.
    Mr. Chaffetz. And again, generals, one of the concerns is 
the highlight of the corruption not just on the pharmaceutical 
side, but the lack of patient care was something that had been 
going on for years. It was highlighted in August; it percolated 
into September; it rolled into October; it was into November. 
People asking for additional resources, resources that were 
strained at the very best; and yet we have three colonels who 
stepped up and said it just wasn't happening. And then we have 
multiple issues where evidence and documents and things were 
either destroyed or people were given instruction, at least 
they believe they were given instruction to reduce evidence.
    I will ask you, General Caldwell, the Japanese government 
was generous enough to donate $11.6 million in fiscal year 2010 
specifically to fund the Afghan medical system, and they were 
considering donating another $23.8 million. There is a series 
of correspondence that we have where there is discussion at the 
senior levels of leadership within your command questioning 
whether or not we should share any of the concerns that we had 
with corruption, with abuse, with the stealing. My question to 
you, General, is did we share that information with the 
Japanese government, and what did they ultimately decide to do?
    General Caldwell. I would have to go back and review, 
Chairman. What they ultimately did, as I best recall at this 
point in time, they did provide the resources. But, again, I 
think a big part of that is we brought all the ambassadors in 
Afghanistan, as a minimum, every quarter, if not every other 
month, and gave them a complete update on the development of 
the Afghan National Security Force, and during each of those 
briefings we always laid out all of our challenges and the 
ongoing efforts that we had in working with the Afghans through 
certain very challenging issues. It always made for a very 
lively discussion with all the ambassadors because they, of 
course, had their own countries' concerns of different things 
they were seeing or observing inside of Afghanistan.
    So I would dare say that the ambassador and I, because we 
had a fairly close relationship from Japan, would have had a 
good dialogue on that, although I can't produce an email to 
show you that, but he and I had met often enough and did get 
together, because they were one of our key donors. Obviously, 
one of the things that I took on very serious, my role as a 
NATO commander, but also wearing a dual hat as the American 
commander, was to seek as much international contributions to 
reduce the amount of money that the United States was 
contributing to this effort and to get greater international 
participation.
    I mean, in the end there we had 37 different nations that 
were contributing to the NATO training mission, from what was 
originally 3 nations when I took command in 2009. So there was 
an enormous effort on our part to bring more and more of the 
international community into this not only to assist us at that 
time period, but more to look towards the future and a long-
term commitment inside of Afghanistan, again, to try to help 
the overall reduction of what America would do both in terms of 
not only monetary assets, but the presence of our men and women 
there too.
    Mr. Chaffetz. General Patton, do you have anything to add 
to that?
    General Patton. No, sir.
    Mr. Chaffetz. General Caldwell, again, I don't mean to 
belabor this point, but it is a very serious allegation. I want 
to give you a direct opportunity to respond to what a witness 
said before, Colonel Fossil's quote about you, referring to 
your conversation. How could we think to invite the IG during 
an election cycle? He calls me Bill. Is that something you 
said?
    General Caldwell. Chairman, at no time during that course 
of making the decision to invite the DOD IG in or while they 
were there did I ever make that statement.
    Mr. Chaffetz. No parts of that statement, he calls me Bill? 
Is that something you said or did not say?
    General Caldwell. Again, at no time during the time period 
we were preparing to call the DOD IG in or while they were 
there did I ever make that statement. There was a period in 
time earlier, several months before, when I, as part of a 
briefing that General Petraeus was given as an update by video 
teleconference to the White House, was invited in to give a 
portion of an update on the development of the Afghan National 
Security Forces. When I was giving that portion of my briefing 
to the President, I did come back and tell my staff I was 
actually very impressed by the fact that he was prepared well 
enough during the briefing, when I had my part come on, to have 
been able to refer to me by my nickname instead of by my formal 
title. And I think anybody who has the President of the United 
States call them by their first name probably remembers that.
    So I know, I am sure I came back and talked to my staff and 
commented to them, because it was an impressive thing to have 
that done, but it had absolutely nothing, nor did I ever refer 
to it during the time period of the request of developing or 
preparing for the Department of Defense IG to come in and help 
us during this time period.
    Mr. Chaffetz. I appreciate your clarification.
    General Patton, did you ever witness that or did you have 
anybody come to you with concerns about those comments?
    General Patton. In the 18 months I served beside General 
Caldwell, I never heard him make that statement or refer to 
anything in other than an apolitical context.
    Mr. Chaffetz. Did anybody else come to you with those 
concerns, that that statement or a version of that statement 
had been said at that time?
    General Patton. No, sir. If I could just reiterate, I did 
not direct, nor did I receive, orders from anybody during that 
time period to avoid, impede, delay the DOD IG request for a 
visit.
    Mr. Chaffetz. Thank you.
    I will recognize the gentleman from Massachusetts and then 
we will wrap up.
    Mr. Tierney. Thank you. I think we have heard enough here 
today and I want to thank everybody for their testimony, for 
taking your time, and, again, for your service. Thank you.
    Mr. Chaffetz. Thank you.
    I appreciate working with Congressman Tierney. These things 
are not partisan issues. The idea of rooting out corruption, 
fraud, abuse is something I think that we are all dedicated to.
    Again, I want to thank the service of the men and women who 
have served in the most difficult of circumstances. I can't 
imagine being away from, I have a hard time being away from my 
family for three days, let alone serving a year plus, and yet 
we have men and women who routinely do that in the most 
difficult and dangerous of situations. So I cannot thank you 
for your personal service, but the service of literally 
millions of people through the years who have stepped up and 
answered the call to protect this Nation and provide for the 
interest of the United States of America.
    With that said, I do think the Committee needs to continue 
to evaluate and make recommendations about how to improve the 
process of transparency, and specifically oversight. In the fog 
of war and the difficulties of war, oversight is exceptionally 
difficult, and yet we find story after story, instance after 
instance of abuse, waste, fraud that has to be dealt with so we 
can improve. That is the spirit in which we come here. These 
are precious resources. The critical mission has to be 
executed, but what is not acceptable is withholding of evidence 
and information. That will be further explored.
    As we wrap up here, I want to give you each, if you choose, 
you may choose not to, but I just want to make sure that, for 
the record, if you have any other thing that you would like to 
share with this Committee for the record, just kind of go down 
the line. We will end with you, General Caldwell, and maybe 
start with Ambassador Moorefield. If there is anything else you 
wish to speak to, I just want go give you an opportunity to do 
so, and then we will conclude.
    Mr. Moorefield. Thank you, Mr. Chairman. Actually, there is 
one point I would like to make. We have had an ongoing 
discussion with the command about their need for additional 
personnel resources, certain skill sets that they lacked to be 
able to provide appropriate care with respect to developing 
acquisition requirements and oversighting the execution of 
contracts in order to prevent fraud, waste and abuse, and 
corruption; and, indeed, at one point submitted a letter to the 
Department of Defense supporting a request that the command had 
previously made for those additional oversight resources. So I 
would just like to make that one point.
    Mr. Chaffetz. Thank you. Again, thank you for your service.
    General Patton?
    General Patton. Yes, Mr. Chairman. Thanks for just a final 
wrap up comment. I would just like to say I spent 18 months of 
my life at NATO Training Mission-Afghanistan and consider my 
tour of duty there as one of my career's most challenging, yet 
most fulfilling tours of duty and assignments, and most 
rewarding. I put my heart and soul into this job.
    I stand by everything I did in the performance of those 
duties and acknowledge, clearly, that the two toughest issues I 
dealt with during my time there as deputy commander were, one, 
AWOL rates and attribution among the Afghan Army soldiers. We 
didn't talk about that today, but I think that is something 
that we need to maintain continued, persistent effort on, 
working with our Afghan counterparts in order to build an 
enduring force there.
    And then, secondly, the issues with the hospital. It was a 
complex issue, sometimes gut-wrenching, and due to all the 
things that I think were discussed here in this hearing today, 
with regard to corruption, substandard medical care, bad 
leaders, apathetic doctors, and so forth. I want the Committee 
to know that I took this problem very seriously during my time 
there, and were it not for the persistent efforts of the people 
at this table and others in NATO Training Mission-Afghanistan, 
we would not have ever seen some of the positive changes that 
occurred during that time frame there, especially in the 
December, January, February, through summer of 2011, 
specifically the change in Afghan leadership within the office 
of the surgeon general, General Yaftali, and other positive 
changes that I described earlier in responding to Congressman 
Tierney.
    So I would just like to say thank you for the opportunity 
today to make those points, to clarify some points on the 
record that had been presented previously to this Committee 
that lack some of the greater context and lack some of the 
clarity that I think we have helped provide today. Thank you.
    Mr. Chaffetz. Thank you, General.
    General Caldwell.
    General Caldwell. Chairman, thank you again, and to the 
Committee members, for allowing us to have this opportunity to 
come here today to discuss these various issues. I will tell 
you those pictures you showed at the beginning, I just want to 
say one more time, are absolutely unacceptable, and there is 
nobody within that command that I had the privilege of serving 
with that, once saw it, would have done anything less than what 
we did do there on November 10th, once they became known to the 
command leadership, and that was decisive and immediate action, 
with a thorough continuing emphasis thereafter to ensure that 
that kind of thing did not occur again, because that is not 
something people tolerate.
    And I am glad my command IG was able to bring it to our 
attention so that we were able to take decisive action 
internally, within our organization, to immediately address it 
and deal with it.
    I will say that we, at all times during the two years that 
I served there, worked very diligently to be good stewards of 
the taxpayers' money that you also have graciously been able to 
give to us to enable us to do that mission.
    In fact, by the end of the two-year period that I had 
served there, through various programs, efforts, and 
efficiencies that we had put in place, it was just over 3 
billion U.S. dollars that we were returning, that we did not 
need, that had already been previously asked for, that we found 
that we were not going to need to spend because of the 
efficiencies and effective things that we had put in place. Not 
because we weren't still doing what we had planned, but we had 
done it in a far more efficient, in a far more effective 
manner; we had redone contracts, we had gone back in and looked 
at how we procured things. I mean, the amount of things we did 
to greatly reduce the overall amount of expenditures that we 
had was really phenomenal, with just an incredible group of men 
and women dedicated to doing that and finding everything they 
could within their abilities.
    I do want to tell the DOD IG he was correct, Ambassador 
Moorefield is, in that each time we were able to bring them in 
and they identified that we had challenges that we knew we did, 
and then we were able to take and follow through with a request 
for additional forces, it was that supporting document from the 
Department of Defense IG's office stating that we had 
challenges and we needed additional resources. It was a 
continual effort throughout the entire two years I was there.
    I am not sure there is any one commander that would never 
request more resources, but there were key critical assets we 
absolutely had to have at different points in time that were 
absolutely essential, and the Department of Defense IG's office 
helped to surface that so it came up through multiple ways, 
because I did have complete trust that my leadership was 
providing me the resources that they had the ability, looking 
at the much bigger picture, when I would ask for something else 
to assist the men and women in the command, American and NATO 
and partners that were working with us, to get after our 
mission.
    And I am incredibly grateful for the men and women that 
served over there, both military and civilian, international 
and United States, during the two years that I had the 
privilege to be associated with them, were willing each and 
every day to get up and do the absolute very best that they 
could both within the resources that they were given to make a 
difference inside of Afghanistan and try to help move that 
entire effort forward so that we all could move to the point 
where, in December of 2014, we can in fact transition the lead 
force security to the Afghans and then only have minimal 
support being provided them from either NATO or U.S. assets 
thereafter.
    So thank you, Chairman.
    Mr. Chaffetz. I thank you all, and God bless the United 
States of America.
    [Whereupon, at 11:50 a.m., the committee was adjourned.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
